No. 19-551

IN THE
Supreme Court of the Anited States

RONALD CALZONE,
Petitioner,

Vv.

ERIC T. OLSON,
Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.11(h), I hereby certify that the
Brief in Opposition to the petition for writ of certiorari contains 4,880 words,
excluding the parts of the brief that are exempted by Supreme Court Rule
33.1(d).

I declare that under penalty of perjury that the foregoing is true and
correct.

Executed on December 18, 2019.

   

Peter T. Reed
DEPUTY SOLICITOR GENERAL
STATE OF MISSOURI

 
